 QUALITY CONTROL REVIEW OF THE
AUDITED FINANCIAL STATEMENTS FOR
         FISCAL YEAR 2006
       Federal Aviation Administration
    Administrative Services Franchise Fund

        Report Number: QC-2007-006
       Date Issued: November 13, 2006
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of the                     Date:    November 13, 2006
           Audited Financial Statements for Fiscal Year
           2006, Federal Aviation Administration
           Administrative Services Franchise Fund
           Report Number: QC-2007-006

  From:    Rebecca C. Leng                                        Reply to
                                                                  Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Federal Aviation Administrator
           Mike Monroney Aeronautical Center Director

           The audit of the Federal Aviation Administration Administrative Services
           Franchise Fund’s Balance Sheets as of September 30, 2006 and September 30,
           2005, and the related statements of net cost, changes in net position, financing, and
           budgetary resources for the year ended September 30, 2006, was completed by
           KPMG LLP of Oklahoma City (see Attachment). We performed a quality control
           review of the audit work to ensure that it complied with applicable standards.
           These standards include Generally Accepted Government Auditing Standards; and
           Office of Management and Budget Bulletin 06-03, “Audit Requirements for
           Federal Financial Statements.”

           KPMG concluded that the Franchise Fund’s Balance Sheets as of September 30,
           2006 and September 30, 2005, and the related statements of net cost, changes in
           net position, financing, and budgetary resources for the year ended September 30,
           2006, were presented fairly, in all material respects, in conformity with accounting
           principles generally accepted in the United States.

           The report presented the following four reportable internal control weaknesses and
           two instances of noncompliance with laws and regulations.
                                                                              2


Reportable Conditions

   1.   Failure to Obtain Signed Agreements Prior to Start of Services
   2.   Discrepancies within the Accounts Receivable Aging
   3.   Miscommunication and the Need for Proper Research
   4.   Information Technology Controls over FAA and Third-Party Systems and
        Applications

Noncompliance with Laws and Regulations

   1. Department of Transportation and Related Agencies Appropriations Act of
      1997
   2. Federal Financial Management Improvement Act of 1996 (FFMIA)

KPMG made 16 recommendations for corrective actions in its report. We agree
with them and are, therefore, making no additional recommendations. Franchise
Fund officials concurred with the reportable conditions and instances of
noncompliance, and agreed with the recommendations. Franchise Fund officials
committed to implementing corrective actions during fiscal year 2007. In
accordance with DOT Order 8000.1C, the corrective actions taken in response to
the recommendations are subject to follow-up.

In our opinion, the audit work performed by KPMG complied with applicable
standards.

We appreciate the cooperation and assistance of Federal Aviation Administration,
Franchise Fund, and KPMG representatives. If we can answer any questions,
please call me at (202) 366-1496; or Earl C. Hedges, Program Director, at (410)
962-1729.

Attachment

                                       #
